                REVIEW OF GSA’S
    GENERAL MANAGEMENT AND ADMINISTRATION
             WORKING CAPITAL FUND
        REPORT NUMBER A070096/B/F/F08008
                  JUNE 24, 2008




.
Congressional Inquiry of GSA’s General Management and Administration
                         Working Capital Fund
                       Report Number: A070096

                       TABLE OF CONTENTS



                                                         Page

EXECUTIVE SUMMARY                                        i
INTRODUCTION                                             1
RESULTS OF AUDIT                                         5
RECOMMENDATIONS                                          10
MANAGEMENT COMMENTS                                      10
INTERNAL CONTROLS                                        10


MANAGEMENT RESPONSE                                      A-1
REPORT DISTRIBUTION                                      B-1
                             EXECUTIVE SUMMARY

Purpose

The purpose of our review was to gain an understanding of the General
Management & Administration (GM&A) Working Capital Fund (WCF) and how
the costs associated with this fund are allocated to the organizations within the
General Services Administration (GSA).

Background

The GM&A WCF is a fully reimbursable revolving fund that finances
administrative support services that are provided to GSA organizations and other
select Federal agencies. The GM&A WCF is comprised of three main services:
Centralized Administrative Support (CAS), Centralized Charges, and the
Enterprise Infrastructure Operations (Information Infrastructure). The CAS
represents the largest portion of GM&A WCF at approximately 55% of total
obligations.

The GM&A WCF is authorized to recover, through billing rates, all costs of
providing requested services to GSA organizations and select Federal agencies,
including charges for personnel, materials, equipment (including maintenance,
repair, depreciation, and replacement), and related expenses. The billing rates
are based on a workload statistics methodology or full-time equivalent (FTE)
methodology.

In Fiscal Year (FY) 2001, GSA’s former Council of Controllers established the
Administrator’s Discretionary Fund (Surge Account). The Surge Account is
available for the Administrator to use for special initiatives and has an annual
budget of $2.5 million.


Results in Brief

Our review of the GM&A WCF found weaknesses and a lack of controls in the
methods used to allocate GSA’s administrative service charges to components
within GSA. Some staff offices charge GSA components based on workload
statistics. However, officials from the Office of the Controller stated they do not
maintain the documentation to support these statistics. The majority of the
GM&A WCF charges allocated to GSA components are apportioned prorata
based on the components’ FTE level as a percentage of GSA’s FTE level.
According to Office of Controller officials, there is no requirement that workload
statistics be submitted. However, without workload statistics, the charges
apportioned to individual components may not be accurate.

                                          i
We also found control weaknesses in the Surge Account, which is used at the
discretion of the Administrator. The Surge Account was billed to GSA
components on a prorated FTE basis as part of the GM&A WCF. Documentation
is lacking on the approval process for Surge disbursements. In addition, prior to
our audit, Surge Account disbursements were included within the overall CAS
accounts and flowed through the accounting system but were not separately
identified as such. Furthermore, it is questionable as to whether it is allowable
for GSA to utilize an unused portion of the GM&A WCF as an offset to the next
year’s CAS bill.

Recommendations

Based on our review of the GM&A WCF, we recommended that the Chief
Financial Officer:

   1. Develop formal policies and procedures for allocating CAS charges
      including determining the appropriate cost allocation methodology (i.e.
      workload statistics or FTE level), and documenting the administrative
      office’s rationale for the chosen methodology.

   2. Ensure all policies and procedures defining the appropriate use of the
      Surge Account are followed and the method of approval for each
      disbursement from the Surge Account is documented.

   3. Seek a legal opinion from the Office of General Counsel on whether, and
      under what conditions, it is allowable under appropriations law to utilize
      the unused portion of the GM&A WCF to reduce the subsequent year’s
      CAS bill. Or, is it more appropriate to return any unused appropriated
      funds back to the organization that submitted them.




                                        ii
                                 INTRODUCTION

Background

The Working Capital Fund (WCF), authorized by the Independent Offices
Appropriation Act of 1946 (P.L. 79-49; 40 U.S.C. 293) provided initial
capitalization of $50,000 with modest additional capital appropriations made over
the years. Through 1994, the WCF was limited to providing central blueprinting,
duplicating, and distribution services for all GSA programs and to other Federal
agencies. Beginning in 1995, the fund was expanded to finance centralized
administrative services on a reimbursable basis that had previously been
supported by a direct appropriation for general management and administration.
For fiscal year 2007 the balance of the WCF was $448 million.

Public Law 103-329 authorizes the use of the WCF for “administrative support
services including accounting, budget, personnel, legal support, and other related
services…” The law also states that the WCF can be used for “administrative
and management services that the Administrator of GSA deems appropriate and
advantageous subject to prior notice to the Office of Management and Budget.”

The General Management and Administration (GM&A) WCF is a fully
reimbursable revolving fund that finances administrative support services that are
provided to GSA organizations and other select Federal agencies. The agency-
level management activities funded through the WCF include:

   •   The Office of the Chief Financial Officer (OCFO) - OCFO provides
       “corporate” shared services and full service financial management.
   •   The Chief Human Capital Office (CHCO) - CHCO contributes to GSA’s
       business success by providing human capital management strategies,
       policies, advice, information, services, and solutions consistent with merit
       system principles.
   •   Chief Information Officer (CIO) – CIO provides enterprise IT services and
       solutions at best value by leveraging IT resources to support GSA
       business needs and electronic government.
   •   Chief Acquisition Officer (CAO)- CAO has agency-wide responsibility for
       planning, directing and controlling functions that affect all GSA contracting
       activities.
   •   The Office of General Counsel (OGC) – OGC provides sound and timely
       legal support to GSA’s programs in areas such as contracting, information
       technology, travel and transportation, e-government initiatives, disposal of
       government property, bankruptcy, real estate, construction, historic
       preservation, leasing, environmental issues, telecommunications,
       litigation, personnel and labor relations, equal employment opportunity,
       appropriations, finance, the Freedom of Information Act, the Privacy Act,
       and the Federal Advisory Committee Act.


                                         1
   •   The Office of Small Business Utilization (OSBU)- OSBU has nationwide
       responsibility for GSA’s small business programs. OSBU promotes and
       facilitates programs and activities that provide “Access to Opportunity” to
       small, small disadvantaged, woman-owned, HUBZone certified and
       service-disabled veteran-owned businesses in GSA contracting
       nationwide.
   •   The Office of Civil Rights (OCR)- OCR is responsible for implementing
       both internal and external Civil Rights Programs at GSA.
   •   The Office of Performance Improvement (OPI)- OPI directs GSA’s
       performance planning initiatives by ensuring that there is a robust and
       rigorous process in place to identify, develop, and execute changes
       necessary to achieve performance improvements.
   •   The Office of Emergency Management (OEM)- OEM is responsible for the
       GSA Nationwide Continuity of Operations Program and the GSA
       Interagency Emergency Response Program.

The Office of Budget (BE), within the Office of the Chief Financial Officer, is
responsible for the management and oversight of the GM&A WCF. The GM&A
WCF is authorized to recover, through billing rates, all costs of providing
requested services to GSA organizations and select Federal agencies, including
charges for personnel, materials, equipment (including maintenance, repair,
depreciation, and replacement), and related expenses. The billing rates are
based on a workload statistics methodology or full-time equivalent (FTE)
methodology. A data call is sent out in the spring asking all administrative
support offices to submit workload statistics to BE. If this data is not submitted,
BE defaults to utilizing an FTE methodology to determine the charges allocated.
Under the FTE methodology, GM&A WCF costs are allocated based on the
percentage of GSA FTE’s attributable to that organization.


GM&A Working Capital Fund Overview

The GM&A WCF is comprised of three main services: Centralized Administrative
Support (CAS), Centralized Charges, and the Enterprise Infrastructure
Operations (Information Infrastructure). The CAS represents the largest portion
of GM&A WCF at approximately 55% of total obligations. The CAS includes
agency-wide functions such as finance, budget and accounting support,
information technology, personnel administration, acquisition policy, and legal
services.

Also included in the CAS is the Surge Account. According to the Office of the
Controller (BE), GSA’s former Council of Controllers established the Surge
Account in FY 2001 with a budget of $2.575 million to be utilized by the
Administrator for special initiatives. The Surge Account has remained at $2.575
million with the exceptions of FY 2006 and FY 2007. Specifically, in FY 2006, the
Surge account was reduced to $1.575 million and the reduction was used to

                                         2
offset the FY 2006 CAS Bill. In FY 2007, the Surge Account was increased to
$2.9 million to add funding for the Student Loan Repayment Program. The
Surge Account is currently displayed as a separate line item in the CAS bill.
However, prior to FY 2007, the Surge Account was within the “Remaining CFO
Activities” category of the CAS bill.

Centralized Charges is a clearing account for agency-wide costs paid by GSA,
and includes programs such as Unemployment Compensation, Workman’s
Compensation, Postage, FTS Long Distance Services, and Wireless Cell Phone
Service.

Enterprise Infrastructure charges are paid to the Office of Chief Information
Officer for the following services:

   •   Enterprise Services provides centralized program management that
       supports coordination and management controls for all elements of the
       Office of Enterprise Infrastructure. The support includes office
       administration, contract administration, performance management, budget
       and finance.
   •   Desktop Services manages and provides agency-wide electronic mail,
       collaborative services and maintenance and distribution of desktop client
       software.
   •   Customer Services manages and provides agency-wide consolidated
       help desk services.
   •   Network Operations manages, monitors, and provides agency-wide
       support for authentication, voice and data communications and data
       centers.
   •   Infrastructure Applications develops, implements, and supports GSA’s
       internet/intranet Web services (gsa.gov and Insite).
   •   Business Applications develops and supports business applications for
       the Office of Governmentwide Policy.




                                         3
Objective, Scope, and Methodology

The objective of the review was to:

   •   Gain an understanding of the General Management & Administration
       (GM&A) Working Capital Fund (WCF) and how the costs associated with
       this fund are allocated to the organizations within the General Services
       Administration (GSA).

To accomplish this objective we:

   •   Reviewed relevant laws and regulations regarding the GM&A WCF.
   •   Interviewed personnel and analyzed documentation to gain an
       understanding of the GM&A WCF and internal controls.

This audit was conducted in accordance with generally accepted government
auditing standards (GAGAS) and was performed from January to September
2007.




                                       4
                              RESULTS OF AUDIT


Our review of the GM&A WCF found weaknesses and a lack of controls in the
methods used to allocate GSA’s administrative service charges to components
within GSA. Some staff offices charge GSA components based on workload
statistics. However, Office of Controller officials stated they do not maintain the
documentation to support these statistics. The majority of the GM&A WCF
charges allocated to GSA components are apportioned prorata based upon the
components’ FTE level as a percentage of GSA’s FTE level. According to Office
of Controller officials, there is no requirement that workload statistics be
submitted. However, without workload statistics, the charges apportioned to
individual components may not be accurate. According to Office of Controller
officials, there is little documentation on overall policies and procedures for
allocating charges for the GM&A WCF.

Controls are also lacking over the Surge Account, which is used at the discretion
of the Administrator. The Surge Account is billed to GSA components on a
prorated FTE basis as part of the GM&A WCF. Surge Account funding and
disbursements are part of the CAS bill and flow through GSA’s accounting
system. However, prior to our audit, Surge Account disbursements were not
separately identified as such within the CAS bill. We identified $998,000 in
Surge disbursements in FYs 2006 and 2007, but because the Surge
disbursements were not separately identified, we cannot be certain this includes
all Surge Account disbursements.

Funding of the GM&A WCF with GSA components’ one year appropriations,
such as the Office of Inspector General (OIG) and Office of Governmentwide
Policy (OGP), could constitute appropriations law issues if those funds are
retained beyond the appropriation year.

Weaknesses in Methods Used to Allocate WCF Charges

The workload statistics methodology is one of two methods used by staff offices
to allocate CAS charges to components within GSA. Staff offices gather data
from a variety of activities such as the number of Pegasys transactions, the
number of FTE dedicated to a specific GSA component, or the amount of time
spent on a project. Workload data is based on the period from the end of March
of the previous fiscal year through the end of March of the current Fiscal Year
(mid-year to mid-year).

FTE allocation is the default method used by the Controller’s Office, when
workload statistics are not available or submitted by GSA components.




                                         5
The FY 2007 CAS bill for GSA was as follows:

            Staff Office                   Methodology         FY 2007 CAS Billing
                                                                Amount for GSA
 Office of Finance                   Workload Statistics          $21,523,073
 Financial Management Systems        Workload Statistics          $45,810,506
 Payroll Program                     Workload Statistics           $9,931,187
 Remaining CFO Activities            FTE                          $15,750,503
 Surge                               FTE                           $2,575,000
 Chief Human Capital Officer         FTE                          $20,829,768
 (formerly Chief People Officer)
 General Counsel                     Workload Statistics          $11,435,625
 Office of Citizen Services and      Workload Statistics          $1,642,631
 Communications
 Building Security Committee &       FTE (billed only to PBS       $1,850,870
 Small Business                      & FAS)
 Regional Acquisition                FTE (billed only to PBS       $227,040
 Management                          & FAS)
 Regional Management (Regions)       FTE (billed only to PBS      $44,864,826
                                     & FAS)
 Civil Rights and Regional Equal     FTE                           $2,314,787
 Employment Opportunity
 Chief Information Officer           FTE                          $13,570,661
 Office of Governmentwide Policy     FTE                            $837,388
 Office of Performance               FTE                           $1,724,022
 Improvement
 Office of Emergency                 FTE                           $416,712
 Management
 Office of Chief Acquisition         FTE                           $6,531,470
 Officer
 Public Building Service –National   All PBS                       $777,940
 Capital Region
 Common Costs (includes              FTE                          $18,610,331
 Centralized Charges, OCIO
 Infrastructure, and SES Pay
 Raises and Awards)

While we recognize that there may not be workload statistics available for all
CAS charges, without assurance that the FTE methodology allocation is
representative of the cost incurred in servicing an organization, CAS charges
may be over or under billed to individual components. For example, utilizing the
FTE allocation methodology in FY 2007, the OIG paid $562,404 to the Chief
                                           6
Human Capital Officer for human resources and personnel services, even though
the OIG operates its own separate personnel office.

Lack of Controls over the Surge Account

According to the Office of Controller, when a new Administrator takes office, a
budget briefing is conducted with the Administrator’s staff. As part of that
briefing, a booklet titled “The Deputy Chief of Staff Budget Briefing” (briefing
booklet) containing the criteria governing the uses of the Surge Account is
discussed. According to the briefing booklet provided to the Administrator’s staff,
the Surge Account can be used for: (1) the Administrator’s corporate
project’s/initiatives; (2) the Administration’s unfunded mandates; and (3) one-time
costs or recurring costs for items where permanent out-year financing has been
approved and/or the agency will absorb from the existing baseline in future fiscal
years; and must support GSA customers/stakeholders, although external
customers may benefit indirectly.

The briefing booklet also states that the WCF Surge Account is not intended for
the use of (1) increases in operating expenses of Staff Offices; (2) renovation of
offices, (3) replacement of furniture; (4) replacement of personal computers; and
(5) funding for existing staff or new staff where subsequent year funding has not
been secured by paying customers.

According to the Office of Controller, disbursements from the Surge Account
must go through an approval process. Once a request is submitted by the
Administrator to the OCFO, the Agency’s General Counsel and the Office of
Controller within the OCFO must approve the request before any disbursements
are made from the Surge Account. However, the Controller’s Office was not able
to provide any documentation validating this approval process.

Funding that is at the discretion of the head of the agency should include clear
and detailed documentation and formal policies and procedures on how the
funds can be used. Office of the Controller officials explained to us that the
Surge Account funding and disbursements flowed through the accounting system
as part of the CAS funding and disbursements, but were not specifically identified
as Surge disbursements. This is because prior to 2007, the Surge Account
wasn’t identified as a line item within the CAS bill, but was simply included in the
“Remaining CFO Activities” line item as part of the “Corporate Account”. The
funding and disbursements of CAS that were made as part of the Surge Account
were tracked on a spreadsheet. We verified that the Office of the Controller now
identifies Surge funding and disbursements as such through the Pegasys
accounting system, and no longer use a spreadsheet.




                                         7
Office of the Controller officials provided us a listing of FY 2006 and FY 2007
disbursements from the Surge account.


       Fiscal Year           Dollar Amount               Purpose
        2006                   $750,000               CAS Bill offset
        2007                    $29,000               Fitness Center
                                                        Equipment


According to Office of Controller officials, the reported Surge Account
disbursements meet the given criteria for appropriate usage; the fitness center
renovations and equipment benefited GSA employees; and the CAS offset was
prior year costs where GSA absorbs the existing cost in future years.

As shown above, the only disbursement initially reported in FY 2006 was for
$750,000, which was used to offset the CAS bill. However, as part of our review
of the GM&A WCF, we reviewed all disbursements from the overall “Corporate
Account”, of which the Surge Account was a part of for FY 2006 and FY 2007.
During our review, we noted a contract totaling $219,000 for the Fitness Center
Renovation in the September Corporate Account documentation. Since there
was a $29,000 charge in FY 2007 for the Fitness Center equipment, we inquired
whether the $219,000 was also a Surge disbursement as it was not initially
disclosed as a FY 2006 disbursement. The Controller’s Office confirmed this
was a Surge disbursement, and should have been captured in the FY 2006 data
provided to the OIG.

Office of Management and Budget (OMB) Circular A-123, Management and
Accountability and Control states that, “Transactions should be promptly
recorded, properly classified and accounted for in order to prepare timely
accounts and reliable financial and other reports. The documentation for
transactions, management controls, and other significant events must be clear
and readily available.”

This discrepancy was caused by not specifically identifying Surge funding and
disbursements within the CAS account. Office of the Controller officials stated
there were no other such Surge Account disbursements that were not identified.
However, since Surge Account disbursements were not identified as such, we
are unable to verify whether there were any additional Surge Account
disbursements.

As a result of the audit, the Controller’s Office now specifically identifies and
tracks Surge Account disbursements within the accounting system.




                                          8
Appropriation Law Issues

According to the Office of Controller, any funds remaining in the GM&A WCF
Account are rolled into the Agency’s unobligated Balance Account at the end of
the fiscal year. In the next fiscal year, a portion of the unobligated balance is
reallocated to GSA components in the form of a credit for the next CAS bill.

Some GSA components such as the Office of Government-wide Policy (OGP)
and the OIG receive one - year appropriated funds from Congress.
Appropriations rules require that any funds be used only for a purpose authorized
by law and any funds not spent before the end of their appropriated lifespan must
be returned to the U.S. Department of Treasury. The funds the OGP and the
OIG utilize to pay the CAS bill are appropriated funds. These funds are collected
by the Agency and placed into the WCF, which is a revolving fund.

Although the Agency “refunds” any unused portion of the GM&A WCF in the form
of a reduction of the next year’s CAS bill, any unspent appropriated funds used to
fund the GM&A WCF should be returned to any appropriated organization that
submitted them and ultimately, are either utilized by that organization or returned
to the Treasury.

Conclusion

Our review of the GM&A WCF and how the costs associated with this fund are
allocated to GSA components found issues with the policies and procedures
governing the GM&A WCF and the Surge Account, the methodology used to
allocate GM&A WCF costs to organizations within GSA, as well as the monitoring
of Surge Account disbursements.




                                        9
                              Recommendations

Based upon our review of the GM&A WCF, we recommend the Chief Financial
Officer:

   1. Develop formal policies and procedures for allocating CAS charges
      including determining the appropriate cost allocation methodology (i.e.
      workload statistics or FTE level), and documenting the administrative
      office’s rationale for the chosen methodology.

   2. Ensure all policies and procedures defining the appropriate use of the
      Surge Account are followed and the method of approval for each
      disbursement from the Surge Account is documented.

   3. Seek a legal opinion from the Office of General Counsel on whether, and
      under what conditions, it is allowable under appropriations law to utilize
      the unused portion of the GM&A WCF to reduce the subsequent year’s
      CAS bill. Or, is it more appropriate to return any unused appropriated
      funds back to the organization that submitted them.


                           Managements Comments

Management’s response dated May 20, 2008 states they fully concur with
Recommendation No.1 and has taken actions to develop formal policies and
procedures for allocating CAS charges. Management also concurred with
Recommendation No.2 and has agreed to ensure policies and procedures
governing the Surge Account are followed, and that the approval process
currently in place is adhered to. Management concurred with Recommendation
No.3 and is currently developing an action plan to address this recommendation.
A copy of management’s comments is provided in its entirety in Appendix A.

                               Internal Controls

The objective of our review was to gain an understanding of the GM&A WCF and
how the costs associated with this fund are allocated to the organizations within
GSA. As part of the review we reviewed the controls over the GM&A WCF and
the Surge Account. During our review we were concerned with how the
methodology for allocating administrative charges to components within GSA
was determined. In addition, we noted problems identifying actual Surge
Account disbursements within the accounting detail. We have included
recommendations in the report addressing these issues.




                                       10
We would like to thank the Office of the Controller for the courtesies extended to
us during our review. If we can be of further assistance to you, please do not
hesitate to call Anthony Mitchell, Audit Manager, at (202) 501-0006.




                                        11
